<html>
<title> - AFTER THE DUST SETTLES: EXAMINING CHALLENGES AND LESSONS LEARNED IN TRANSITIONING THE FEDERAL GOVERNMENT</title>
<body><pre>[Senate Hearing 111-582]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-582

                   AFTER THE DUST SETTLES: EXAMINING
                   CHALLENGES AND LESSONS LEARNED IN
                  TRANSITIONING THE FEDERAL GOVERNMENT

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 22, 2010

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
57-328 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
EDWARD E. KAUFMAN, Delaware

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          SCOTT P. BROWN, Massachusetts
ROLAND W. BURRIS, Illinois           LINDSEY GRAHAM, South Carolina
EDWARD E. KAUFMAN, Delaware

                     Lisa M. Powell, Staff Director
                Evan W. Cash, Professional Staff Member
             Jennifer A. Hemingway, Minority Staff Director
           Sean M. Stiff, Minority Professional Staff Member
                      Aaron H. Woolf, Chief Clerk












                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Kaufman..............................................     2
    Senator Voinovich............................................    26

                               WITNESSES
                        Thursday, April 22, 2010

Gail T. Lovelace, Chief Human Capital Officer, U.S. General 
  Services Administration........................................     4
Hon. Clay Johnson III, Former Deputy Director for Management 
  (2003-2009), U.S. Office of Management and Budget..............     7
John D. Podesta, President and Chief Executive Officer, The 
  Center for American Progress Action Fund.......................     9
Max Stier, President and Chief Executive Officer, Partnership for 
  Public Service.................................................    11

                     Alphabetical List of Witnesses

Johnson, Hon. Clay, III:
    Testimony....................................................     7
    Prepared statement...........................................    46
Lovelace, Gail T.:
    Testimony....................................................     4
    Prepared statement...........................................    37
Podesta, John D.:
    Testimony....................................................     9
    Prepared statement...........................................    49
Stier, Max:
    Testimony....................................................    11
    Prepared statement...........................................    60

                                APPENDIX

Background.......................................................    69
Copy of S. 3196 submitted by Senator Kaufman.....................    78
Senator Kaufman summary of S. 3196...............................    90
``Ready to Govern, Improving the Presidential Transition,'' 
  January 2010, submitted by Mr. Podesta.........................    92
``Getting Ready for Day One: Taking Advantage of the 
  Opportunities and Minimizing the Hazards iof a Presidential 
  Transition,'' By Martha Joynt Kumar, Professor, Towson 
  University.....................................................   126
``The 2008-2009 Presidential Transition Through the Voices of Its 
  Participants,'' submitted by Martha Joynt Kumar, Professor, 
  Towson University..............................................   141

 
                   AFTER THE DUST SETTLES: EXAMINING
                   CHALLENGES AND LESSONS LEARNED IN
                  TRANSITIONING THE FEDERAL GOVERNMENT

                              ----------                              


                        THURSDAY, APRIL 22, 2010

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka, Kaufman, and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Good morning. This hearing of the 
Subcommittee on Oversight of Government Management, the Federal 
Workforce, and the District of Columbia is called to order.
    Today's hearing will take a look at the 2008 and 2009 
Presidential transition, its challenges and lessons learned 
that can improve future transitions. The most recent transition 
happened during a time of unprecedented economic troubles, 
heightened national security threats, and management challenges 
across the government. In advance of the 2008 election, this 
Subcommittee held two hearings examining our readiness for the 
transition. At those hearings, the Office of Management and 
Budget (OMB), the Department of Homeland Security (DHS), the 
General Services Administration (GSA), and the Office of 
Government Ethics (OGE) discussed their extensive planning and 
preparations for the transition.
    Today, 15 months after President Barack Obama was sworn 
into office, I am very pleased to say that it appears that this 
early planning and preparation laid the groundwork for a smooth 
transition. Although some problems were revealed, I believe 
this was one of the most successful transfers of power to date.
    Beginning well before the election, the Bush Administration 
ordered agencies to identify career individuals to take on 
leadership roles while political appointees left the 
Administration. This would ensure management continuity in 
critical areas until new people were appointed and brought up 
to speed. In addition, the Obama campaign took advantage of 
provisions in the Intelligence Reform and Terrorism Prevention 
Act which allowed security clearances for individuals who were 
to work in the transition or later in the Administration.
    The General Services Administration worked with both 
campaigns to make sure they would have the administrative and 
financial support needed for the transition. With that 
assistance, the Obama-Biden Transition Project started 
immediately after the election. Early on, the transition 
project deployed teams of subject matter experts to review 
agencies across the government. Some of these experts later 
filled leadership roles within the agencies.
    Before his inauguration, President-Elect Obama named 
several nominees for high-ranking and national security 
positions. By January 22, the Senate confirmed 15 of the 36 
nominees submitted by Inauguration Day. At our Subcommittee 
hearing in September 2008, then-OMB Deputy Director for 
Management, Clay Johnson, recommended a goal of confirming 100 
nominees by April. While we did not get to that number, the 
Senate did confirm over 50, an improvement over the previous 
transitions.
    I remain concerned about the pace of nominations and 
confirmations. Strict vetting and high standards for nominees 
are important, but they do create a slow and complicated 
process. I believe there is still room for improvement in the 
nomination and confirmation process.
    I have pressed the White House for action on several 
important Veterans Affairs nominations, including the Assistant 
Secretary for Management. Filling management positions must be 
a high priority across the government. I also hope to receive a 
nominee to lead the Office of Special Counsel, which is in 
great need of strong leadership, in the near future.
    More can be done to encourage more advance planning before 
elections. I am proud to be an original cosponsor of Senator 
Kaufman's Pre-Election Presidential Transition Act, which would 
encourage planning and provide additional resources for 
candidates before the election. It would also make clear that 
candidates may raise funds to supplement the government 
allowance for their transition.
    I look forward to hearing from the exceptional group that 
we have assembled here today. As leaders in different aspects 
of the incoming and outgoing transition teams, I think that you 
all deserve credit for making this a smooth and transparent 
process.
    With that, I will now ask Senator Kaufman for his opening 
remarks. Senator Kaufman.

              OPENING STATEMENT OF SENATOR KAUFMAN

    Senator Kaufman. Thank you, Mr. Chairman, for your 
foresight and leadership in holding this hearing, and a special 
thank you for allowing me to make these opening remarks.
    Before I begin my statement, I am pleased to join with you 
to introduce S. 3196 that would offer certain government 
services and resources to major candidates before election day 
for the purpose of an early transition planning. I also want to 
thank the Partnership for Public Service for its input. Their 
recent study, ``Ready to Govern: Improving the Presidential 
Transition,'' provides an important analysis, and I am pleased 
that Mr. Stier will be able to share some of the Partnership's 
findings and recommendations with us.
    I am glad that we are joined today by these four 
distinguished witnesses, and I really mean distinguished 
witnesses, who will share their expertise on transition 
activities and how we can make transitions more secure and more 
efficient.
    The peaceful transition of power between administrations is 
often a time of great pride, and should be for all Americans. 
However, it also presents us with a moment of potential 
vulnerability. As the newly elected leaders prepare to assume 
control of our political and security institutions, we need to 
be vigilant against any systemic weaknesses that could be 
exploited by those who would do our Nation harm.
    As someone who has served as a member of the Obama 
Transition Team under the great leadership of our chair, John 
Podesta, I can attest that the transition in the government is 
very challenging. It is a complex dance involving two partners 
who need to move in step with each other. The President-Elect 
only has a short amount of time between Election Day and the 
inauguration to fill dozens of critical positions and prepare 
for the first weeks in office. The outgoing President has a 
responsibility to transmit critical institutional knowledge 
about policy and issues and ongoing potential security 
situations.
    We know from recent studies that the Bush Administration 
officials and incoming Obama staff met on the morning of the 
inauguration to coordinate plans in the event of a terrorist 
attack that day, which intelligence sources had suggested was 
possible. The kind of close coordination between the outgoing 
and incoming officials that morning must be the norm in any 
transition in our post-September 11, 2001, security 
environment.
    The Bush Administration deserves great credit for making 
transition activities a priority and for assigning staff and 
resources to the task. The Presidential Transition Coordinating 
Council, established by President Bush's Executive Order on 
October 9, 2008, brought together key officials from leading 
departments and agencies and it liaised with senior staff from 
both campaigns and eventually President-Elect Obama's 
transition team.
    Also crucial to the success of that transition was the 
Obama campaign had begun to plan for it many months in advance. 
S. 3196, the Pre-Presidential Transition Act, the bill I have 
introduced with my colleagues Senator Akaka, Senator Voinovich, 
and Senator Lieberman, aims to formalize this process of pre-
election transition planning. It will help make transitions 
smoother on both sides.
    For incoming administrations, early planning is vital. That 
is why my bill extends certain government-provided services and 
resources to major party nominees and eligible third-party 
candidates to begin transition planning before Election Day. 
For the outgoing Administration, the bill lays out a successful 
model based on that used by the Bush Administration for 
transferring power responsibly.
    Most importantly, we need to remove the stigma that making 
early plans for a transition is somehow presumptuous. Twelve 
weeks is just too short of time frame for a thorough 
transition. However, if we normalize the Act of early 
transition planning, we will all be better for it. That is the 
aim of the Pre-Election Presidential Transition Act.
    In closing, it is very appropriate that we are here today 
to discuss this issue. We cannot afford to think about 
transitioning the Federal Government only every 4 years. In 
2010, when we are not engaged in a Presidential election, 
having had time to process lessons learned from the previous 
transition, it is important that we look carefully at how to 
improve upon this process. That way, a stronger transition 
process will be in place before Election Day.
    I hope the witnesses will speak to both types of actions, 
organizations, and structures providing help--I am confident 
they will--as well as any impediments they encountered in the 
process. I am also interested to learn of whatever additional 
measures they think would be useful to encourage an early start 
to transition planning on the part of Presidential candidates.
    Again, thank you very much, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Kaufman.
    It is my pleasure to welcome our witnesses here today. 
First, we will hear from our first panel, which is Gail 
Lovelace, Chief Human Capital Officer at the General Services 
Administration.
    As you know, it is the custom of this Subcommittee to swear 
in all witnesses, so will you please stand, Ms. Lovelace, to be 
sworn in.
    Do you swear that the testimony you are about to give this 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Ms. Lovelace. I do.
    Senator Akaka. Thank you. Let the record note that the 
witness spoke affirmatively.
    Ms. Lovelace, I want you to know that although your remarks 
are limited to 5 minutes, your full statement will be included 
in the record. Will you please proceed with your statement.

TESTIMONY OF GAIL T. LOVELACE,\1\ CHIEF HUMAN CAPITAL OFFICER, 
              U.S. GENERAL SERVICES ADMINISTRATION

    Ms. Lovelace. Yes. Good morning, Chairman Akaka and Senator 
Kaufman, and thank you for having us here today to talk about 
this important topic of Presidential transition. I am pleased 
to be here on behalf of the General Services Administration, 
and our Administrator Martha Johnson.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Lovelace appears in the Appendix 
on page 37.
---------------------------------------------------------------------------
    As you may recall, I testified before this Subcommittee on 
September 10, 2008, on this very topic. I am happy to be here 
with you today and to be able to respond to any questions that 
you may have about what has taken place since then. I am also 
pleased to be here today to share hearing time with some of my 
transition colleagues, Clay Johnson, John Podesta, and Max 
Stier.
    In my 2008 testimony, I shared with you then that our 
acting administrator of GSA stated that Presidential transition 
was our highest priority. We were fully committed to a 
successful and smooth transition from one Administration to the 
next. I am proud to be here before you today to say I think 
that we exceeded all of our goals, and yes, we had some fun 
along the way, as well. We have received very positive feedback 
from both campaigns, the transition team, the new 
Administration, our agency partners, some of our good 
government groups, transition historians, and others.
    I was honored to be a part of an extraordinary team of 
individuals from inside GSA and across government to ensure a 
smooth transition as envisioned by the Presidential Transition 
Act of 1963. I couldn't have asked for a better group of team 
leaders in the General Services Administration, and I would 
publicly like to thank Tim Horne, Mary Costa, George Prochaska, 
Neil Skidmore, Laura Leussing, and all of their team members 
for their tireless efforts to make sure this was a smooth 
transition.
    I would also like to thank you for keeping Presidential 
transition on the radar screen. Oftentimes, people think the 
Presidential transition is over after inauguration on January 
20. I believe that our collective, continuing efforts to focus 
on transitions of the future is vitally important, especially 
in these changing times in which we live.
    During this last transition, GSA focused our attention in 
many areas. This hearing has given me the opportunity to 
reflect back on some of our efforts and I stand in awe of our 
accomplishments. We worked with many groups during this time, 
including both campaigns, the incoming Administration, the 
outgoing Administration, the inaugural teams, both the 
Presidential Inaugural Committee and the Armed Forces Inaugural 
Committee, other agencies big and small, and across GSA, and we 
have many stories to tell about how we met the needs of many of 
these groups. I believe 5 minutes is just not enough time to 
help anyone in this room understand the magnitude of our 
efforts, of the collaboration, of the willingness of many 
people just to roll up their sleeves and make this work.
    While GSA is authorized to support Presidential transition 
by the Act of 1963, we really didn't stay in our swim lanes 
this time. We partnered with many to ensure a smooth 
transition, and I am proud of our efforts.
    Reflecting back, one story I would like to tell is about 
election night. Many of the GSA Presidential transition staff 
gathered at transition headquarters to celebrate what we had 
accomplished thus far and to watch the election results. We had 
already put in many long hours to get to that day of November 
4. As the polls began to close, there was a lot of tension and 
excitement in the room. Once we knew the outcome of the 
election, we had our Acting Administrator ascertain the 
apparent winner by signing letters to both campaigns.
    Immediately after that, our team pulled out our Obama 
transition plans and began arranging three floors of office 
space to meet their needs. Our goal was to let them hit the 
ground running. At 1 a.m. on the morning of November 5, I 
watched as our GSA team executed that plan, and within a few 
hours, the Obama transition team appeared at transition 
headquarters and we were ready.
    Meanwhile, on the other side of town that same day of 
November 5, I hosted a meeting with members of the Obama 
transition team who were focused on personnel. That meeting 
included White House personnel, the Chief of Staff's Office, 
Office of Personnel Management (OPM), Office of Government 
Ethics, and others. We rolled up our sleeves and outlined 
specific next steps to ensure smooth hiring of appointees.
    These are just two examples of the many roles that GSA 
played. I am not sure if this was envisioned when the 
Presidential Transition Act was written, but we did not let the 
Act stop us from doing what we thought was right to ensure a 
smooth transition.
    In closing, Chairman Akaka, Senator Kaufman, I want to 
thank you again for the opportunity to address you this morning 
and for keeping Presidential transition on the radar screen. I 
want to thank the many people across government who helped make 
this transition successful. I think we really set the bar high 
for the next transition.
    I would be happy to answer any questions.
    Senator Akaka. Thank you very much, Ms. Lovelace, for your 
statement.
    I know that some of the second panel witnesses have tight 
schedules, so in the interest of time, we would like to hold 
our questions for now and ask the second panel to come forward, 
please. We can then have both panels sit for questioning at the 
same time.
    Ms. Lovelace, I know that you worked with Mr. Johnson and 
Mr. Podesta on the transition, so it would be very useful to 
the Subcommittee if you would indulge us by fielding questions 
with the second panel----
    Ms. Lovelace. I sure would.
    Senator Akaka [continuing]. So we can facilitate a good 
dialogue.
    It is my pleasure this morning to now welcome our second 
panel. I would especially like to acknowledge and thank our 
former government officials who have agreed to come back to 
share their views.
    Clay Johnson, former Deputy Director for Management at the 
Office of Management and Budget from 2003 to 2009. Mr. Johnson 
was the Bush Administration's lead for planning the most recent 
transition, and he also served as the head of President Bush's 
transition into office.
    John Podesta, incoming Staff Secretary during the Clinton 
transition, former White House Chief of Staff to President 
Clinton, Co-Chair of the Obama-Biden Transition Project, and 
President and CEO of the Center for American Progress Action 
Fund.
    And Max Stier, President and CEO of the Partnership for 
Public Service.
    Again, it is the custom of the Subcommittee to swear in all 
witnesses, so those who have not been sworn in, will you please 
stand and raise your right hands.
    Do you solemnly swear that the testimony you are about to 
give this Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Johnson. I do.
    Mr. Podesta. I do.
    Mr. Stier. I do.
    Senator Akaka. Thank you very much. Let the record note 
that our witnesses answered in the affirmative.
    As a reminder, although your statements are limited to 5 
minutes, all written statements will be included in the record.
    Mr. Johnson, will you please proceed with your statement.

 TESTIMONY OF HON. CLAY JOHNSON III,\1\ FORMER DEPUTY DIRECTOR 
   FOR MANAGEMENT (2003-2009), U.S. OFFICE OF MANAGEMENT AND 
                             BUDGET

    Mr. Johnson. Chairman Akaka, Senator Kaufman, thank you for 
calling this hearing and for including us in it.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Johnson appears in the Appendix 
on page 46.
---------------------------------------------------------------------------
    There have been a lot of wonderful ideas proposed for how 
to effect transitions in the future. In fact, I don't know that 
I have come across a bad idea that has been put out on the 
table. So I would like to make some general comments that apply 
to the Senate's and the White House's consideration of all 
ideas about how to manage and organize transitions going 
forward because I think it will help us take these good ideas 
and put them into effect so that we really accomplish what we 
want to do, which is not to be better, or better than ever 
before, but to be good enough to meet our needs.
    The line was in Mr. Stier's report, which was an excellent 
report, summary and recommendations from this last transition, 
which was that this past transition, as you all pointed out, 
was, I think by most accounts, the best ever. There was more 
work done before the election and during the transition, 
particularly by GSA, than ever before and I think it paid off. 
It showed. But I think everybody who is involved would admit 
that a lot more could be done. It was not as good as it could 
have been, or as it can be in the future.
    So what does it mean to focus on a transition that is good 
enough? It means, for instance, when we are talking about 
putting the entire new Administration's team in place, it means 
that we focus not on putting all 1,000 or 1,200 or 1,800 
Presidential Appointments requiring Senate Confirmation (PASs) 
in place, that we understand that some positions are more time 
sensitive than others. There is probably 100 or 125 positions 
that are really important to fill really quickly.
    So it is important that the Senate and the White House, the 
new Administration, the transition team, pay particular 
attention to those and make sure they have the super-capacity 
to identify those individuals to put in those positions, vet 
them appropriately, have their way with them, and eventually 
put them into position very early, I would suggest by April 1.
    Then there is probably another tranche of appointees that 
are next most important or time sensitive, and it is probably 
in the vicinity of 300 positions. Now, what specific positions 
would be included in this list would depend on the incoming 
Administration and what is going on in the United States, in 
the world at that time, and I think it would probably be pretty 
easy for the Senate and the incoming Administration to agree on 
that universe of 100, 125 most important positions, that the 
next 300 most time sensitive positions, what are they, and 
maybe special rules apply within the Senate. Maybe special 
handling, special capacities are created within the transition 
team to deal with those.
    My suggestion to you is, and I think that the reports on 
this by Mr. Podesta's and Mr. Stier's group have both pointed 
this out, that there are 300, 400, 500, maybe, that are really, 
really important, and that is where, I think, the priority and 
the capacity building and so forth really needs to be focused.
    A second point to be made here is regarding capacity. I was 
visiting with some people in the Obama Administration a couple 
of months ago about this and strictly by chance, we started 
talking about how many people did you have working on this at 
the beginning, and I started comparing it to how many people we 
had working on it at the beginning, and it was about the same 
number. It was about five so-called Special Assistants to the 
President, that level of person, that were working on the 
appointments. And we both started laughing. There is nothing in 
writing that says five is the number. That is just what we had 
the budget to do.
    If instead of dealing with the budget we dealt with what 
the definition of success is, which is we want 100 appointees 
in place by this date or 400 by this date, both of us would 
have decided that five is not enough, that we need 10 12, or 
14, which is a much bigger transition challenge to manage than 
if you just have five people doing it. But that is what it 
would take to put the number of people in these critical 
positions by the dates that we are talking about.
    So time sensitive capacity is an issue, and it is not only 
White House capacity, it is Senate vetting capacity, it is 
security clearance capacity. It is just something we haven't 
thought about, but it makes all the sense in the world. Yes, it 
is important to begin earlier. Yes, it is important to begin 
with more support for the incoming Administration. But that is 
not enough.
    You also have to think about how many people you actually 
have doing the work, and I know now that the budgets that are 
inherited by the incoming White House, are not adequate in that 
first year to fund a large enough Presidential personnel staff 
to fill the kinds of positions that need to be filled by April 
1, August 1, etc. So budgeting, particularly for Presidential 
personnel that first year, is something that I encourage you to 
look at.
    And then a third area--I know I am running over, but a 
third area that I encourage you to look at is the data that is 
gathered as part of deciding who to put in these critical 
positions. A lot of data is gathered from the appointees. 
Thirty percent of it, by most measurements, is duplicative. It 
is data that already has been gathered previously. It presents 
an unnecessary burden on the applicant. It takes unnecessary 
extra time to collect this data.
    So I think it has been suggested in some of these other 
reports that the duplication of this data gathering be looked 
at. I also encourage the Senate to look at this, and there are 
ways to mandate it and to call for it and smart forms and other 
kinds of things can be used. But I think that will help not 
only speed up the process, but also lessen the burden on the 
people that are being considered for these very important 
positions.
    Anyway, I look forward to your questions and helping you 
all sort through the best ways to do this good enough in the 
transitions ahead. Thank you for having me.
    Senator Akaka. Thank you very much, Mr. Johnson, for your 
background as well as your wisdom of what you have been doing.
    Mr. Podesta, will you please proceed with your statement.

TESTIMONY OF JOHN D. PODESTA,\1\ PRESIDENT AND CHIEF EXECUTIVE 
     OFFICER, THE CENTER FOR AMERICAN PROGRESS ACTION FUND

    Mr. Podesta. I am happy to, and again, thank you, Mr. 
Chairman, Senator Kaufman, for holding this hearing. I think it 
is really an important topic, and you have my written 
testimony. Let me just make a few key points in summary of 
that.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Podesta appears in the Appendix 
on page 49.
---------------------------------------------------------------------------
    First, President Obama took the transition process 
extremely seriously and we began extensive planning for the 
transition even before the Democratic Convention. I would 
underscore that point. I think he was right to do so, given the 
unprecedented range and magnitude of the problems facing the 
country--two wars, the threat of terrorism, and then the 
economic circumstances that we faced, particularly after the 
Lehman Brothers meltdown in September.
    As you noted, Mr. Chairman, and Mr. Johnson alluded to, I 
think independent observers have noted that the 2008 transition 
was one of the most successful in history, and the 
professionalism and cooperation of the outgoing Bush 
Administration along with the dedicated work of Ms. Lovelace 
and her great team at GSA and U.S. Secret Service and others 
deserve great credit for making that 2008 transition exemplary.
    I think, as I said, the President understood the great 
demands that were being placed on his incoming team. We were 
dealing at a time when there was--we had seen in the previous 
years national security risk heightened during the time of 
transition, both in the U.K. and in Spain, right before the 
election in the case of Spain, right after the transfer from 
Tony Blair to Gordon Brown in the U.K. terrorist incident, so 
we were well aware of that. We got great cooperation, great 
help. The tabletop exercises that had been planned by the Bush 
Administration were, I think, very important interventions for 
our team going in.
    And as I noted, in addition to the incoming threats and 
security problems that needed to be addressed in real time, we 
were facing an economic crisis that took extensive coordination 
between the President-Elect and the Vice President-Elect and 
their teams, as well as the outgoing Administration. So I think 
that the ability to plan and get all of that in gear and moving 
was really critical.
    My second point and observation is we actually need to 
depoliticize the transition process. I think the only risk 
really to a party preparing in the fashion that I described, 
going back to the summer before the election, is the political 
risk to the campaign from being accused of measuring the 
drapes, tempting fate, disrespecting the voters. We were 
accused of all that. The Obama campaign and President Obama 
were accused of all of that. I again want to commend the Bush 
White House, Josh Bolton, and Dana Perino. They put out public 
statements knocking that down during the course of the campaign 
when it was probably--they could have politically just ignored 
it, but they decided to get out and say how important they 
believed the need to plan really was.
    I want to make a point on the Pre-Election Presidential 
Transition Act that Senators Kaufman, Voinovich, Akaka, and 
Lieberman have introduced. I think it is a very important step 
forward in institutionalizing those pre-election transition 
activities. In addition to providing the additional resources 
for transition activities, I think it will begin to create a 
new political climate where presidential candidates are 
rewarded rather than punished for preparing for the challenges 
that await the Nation after election. The new normal should be 
that we expect candidates to take steps necessary to be 
thoroughly prepared to govern before the election rather than 
taking criticism for it. And I think that enactment of this 
statute would help in that regard.
    In terms of the scope of the transition, we can get into 
this in questioning if you would like. It is a massive 
undertaking. We had more than 1,000 people involved after 
Senator Biden was elected as Vice Presidential candidate. 
Senator Kaufman joined us as the co-chair of his efforts. We 
had more than 500 people working on agency review teams. We had 
134 people in policy working groups. That was critical in terms 
of getting ready to have that spurt of initiatives that were 
important in stabilizing the economy, particularly the recovery 
bill, but with Executive Orders, presidential memoranda, review 
of regulations, there is a massive amount of work that needs to 
take place.
    I would say a word about the funding of the transition. We 
received about $5.2 million in Federal funding through the GSA. 
We ended up having to raise $4.4 million in private donations 
to pay for transition costs through a tax-exempt 501(c)(4) 
entity, the Obama-Biden Transition Project. We put strict 
limits on who could give and how much they could give, didn't 
take contributions from corporations or lobbyists. 
Nevertheless, I think it is worth reviewing that on this 
Subcommittee to decide whether the resources would be better 
spent, rather than raising money, in actually doing the 
movement to transition. I don't think that is a lot of money to 
be investing in making sure that the President-Elect's team 
hits the ground running.
    Finally, I would like to add my two cents on the nomination 
challenge. I think that we did get off to a good start and the 
Obama White House got off to a good start. We surpassed with 
respect to the 100-day mark the previous records in terms of 
getting people confirmed, but that slowed down substantially 
and I think that is a problem for the White House, but it is 
also a problem for the Senate. I think that you have to 
consider whether the use, particularly the use of the 
filibuster on Executive Branch nominees is appropriate. I would 
argue that at this moment and at these times, with respect to 
the complexity of the problems on national security and the 
economy, that if you have a simple majority, the President 
deserves his nominees.
    I say that as someone who spent many years in the Senate 
and who participated as a staffer in supporting filibusters. I 
just don't think this is one place where filibusters really 
make a lot of sense and I hope that you could do something to 
move forward, push back on the hold and try to use filibusters 
more judiciously.
    Senator Kaufman. Have you undergone rehabilitation? 
[Laughter.]
    Senator Akaka. Thank you very much, Mr. Podesta, for your 
statement.
    And now we will hear from Mr. Stier. Please proceed with 
your statement.

   TESTIMONY OF MAX STIER,\1\ PRESIDENT AND CHIEF EXECUTIVE 
            OFFICER, PARTNERSHIP FOR PUBLIC SERVICE

    Mr. Stier. Great. Thank you very much, Chairman Akaka and 
Senator Kaufman. This is very important work that you are doing 
here and this Subcommittee has done an extraordinary job 
putting a spotlight on talent issues, which I think have been 
overlooked for a very long period of time. So whether it is 
hiring reform or the Senior Executive Service (SES) 
transformation or Roosevelt Scholars and now the transition 
process, this work is extraordinary and you have a dream team 
with the folks that you have here and time to do some very 
important things, I think.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stier appears in the Appendix on 
page 60.
---------------------------------------------------------------------------
    I would like to make four points. The first is to focus on 
the legislation that was drafted by Senator Kaufman, and 
Chairman Akaka, you are cosponsoring, which I think is an 
important step. Truly, I just want to reinforce everything that 
you heard already from Ms. Lovelace, Mr. Johnson, and Mr. 
Podesta. They did an incredible job, and I think what you have 
an opportunity to do is to build off of what they do to make 
sure that we are not relying on luck to have three folks of 
their caliber and the teams that they represent in the next go-
around.
    As this transition was in terms of what the world looked 
like, the truth is that the world is likely to get scarier and 
scarier as we go on and we need to be able to upgrade our 
ability to transition quickly and effectively. And to Mr. 
Johnson's point, it has to be good enough.
    The issue that you have focused on in your legislation is 
vital, and that is pre-election preparation. I think it does 
what Mr. Podesta says, which is to help diminish that concern 
that candidates might have of being attacked for being 
presumptuous. The only recommendation that we would make in 
terms of strengthening it would be actually to make mandatory 
some of the great practices that the outgoing Administration 
did with respect to the White House Transition Council and the 
Agency Transition Council.
    I think that one of the real challenges will be for a 
first-term President who may envision that they are coming 
around for a second term and whether they will get ahead of the 
process as well as the Bush Administration did, and I think for 
that reason actually requiring it would be very important.
    Second, I want to focus on the question that I think Mr. 
Johnson stated exactly right, which is that while there are a 
lot of things that could be improved, we are best off starting 
from the proposition of what do we need to see happen. What is 
our goal? And from that goal, if we are clear on that goal, we 
can decide what it is that needs to take place.
    And I would argue that the goal ought to be, and there is 
no magic to the numbers, but that on day one or as close to 
there as possible that the new President has his or her 
economic and national security teams in place. And whether that 
is the 50 top people in the key agencies or whatever it might 
be, that seems to me to be what we ought to be shooting for, 
whether it is the 100 in the next 100 days. But at the end of 
the mark, by the summer recess, by the August recess, that full 
team of critical positions, that 500 folks need to be in place. 
And if you start with that objective, I think a lot of other 
stuff follows.
    Now, one of the questions is, how do you set that objective 
out? I don't have a great answer for that. Maybe it is a sense 
of the Senate resolution, something that states it 
affirmatively, that you want to hold that new team coming in, 
that you will jointly work with them on meeting that mark. I 
don't know. There are different variations of what you might 
consider and we could have a conversation about that. But I 
think you have to lay that out as a clear objective and then 
force actions that will allow you to get there. So that is the 
second point.
    The third point is that it would make all of this process 
easier, frankly, if there were fewer political appointees. As 
Mr. Johnson mentioned and as Mr. Podesta knows, there are 
political appointees of different stripes. There are management 
positions, the Assistant Secretaries for Public Affairs or 
Congressional Affairs. Do they really need to be Senate 
confirmed? And if you actually reduce the number, that clears 
away a lot of the activity that needs to take place and will 
ensure that the new political team coming in actually has some 
critical positions filled early on when they really need them.
    There is legislation that Senators Feingold and McCain have 
introduced to do this. Clearly, this is a challenge that has 
been attempted before. It is politically difficult, but 
incredibly important. I think there is a strong case that could 
be made.
    And then, finally, I wanted to focus on a set of what I 
would call a grab-bag of improvements that are available, and 
Mr. Johnson, I think, addressed a number of them with respect 
to the actual process of security clearance or the forms that 
people have to fill out. We live in an age where technology 
ought to make this stuff a lot easier. There are all kinds of 
ways that the process is made difficult for talent coming in, 
and I don't think we even fully understand what the cost is of 
this system.
    So one of the recommendations we would make to you is to 
perhaps ask Government Accountability Office (GAO) to take a 
look at what is the cost of the current system. How many 
talented people are we losing, and what are the options for 
improving the process going forward. That includes both looking 
at the ethics regime, which I think could be improved, as well 
as the entire process of making your way through the 
confirmation.
    So with that, I look forward to answering any questions 
that you might have. I also wanted to point out Katie Malague, 
who is in the audience, because this report is really her baby. 
She put this thing together. She is no longer with the 
Partnership. We lost her to government, and really couldn't 
complain, but she is doing great work right now at OMB. But she 
really deserves great kudos for what she did with it. So thank 
you very much.
    Senator Akaka. Thank you very much, Mr. Stier, for your 
statement. It was great to hear from all of you.
    Mr. Johnson, I am interested in hearing mor about OMB's 
early interaction with the Presidential candidates. Early 
planning by the incoming team is essential. I think it is 
important that they also establish a relationship early on with 
the outgoing Administration. Was there good communication early 
on between the candidates and the Bush Administration?
    Mr. Johnson. Yes, Senator. Both candidates were very 
interested in working with us. They approached it differently, 
which is probably driven by a lot of factors, not the least of 
which was what they thought their chances of winning were at 
the time, back in July and August and September. But both 
candidates were very appreciative of the support we were 
offering, very interested in doing early work, more work before 
the election than had ever been done before.
    The Obama campaign was particularly aggressive about this. 
They, I think, applied more people to this planning effort and 
this pre-election activity than, I would suspect, any previous 
Presidential candidate had ever applied to it. When the Bush 
Administration was, myself at the lead, figuring out what we 
should be doing and preparing to do, I think it was me and 
another person or two. Anyway, there was a whole lot more 
qualified people than I involved in Mr. Podesta's team that 
were working on that. So they really took it very seriously. 
They would raise questions with us. We would raise questions 
with them. It was something that Americans should be and were, 
I suspect, very proud of, because it was the kind of 
cooperation that you would hope would be taking place between 
an outgoing Administration and an incoming Administration.
    Senator Akaka. Thank you.
    Mr. Podesta, one of the Partnership's suggestions for 
future transitions is that a Transition Director be named 
publicly, even before the election. However, I know there are 
real concerns that the transition teams need to be able to do 
their work without the political concerns inherent in an 
election campaign. In your experience, what would be the 
potential benefits and problems with naming transition 
officials before the election?
    Mr. Podesta. Well, Mr. Chairman, I think that you have 
almost banked it by the way you framed the question. I think 
that particularly the pre-election effort has to be done with 
the utmost discretion and discipline. First of all, the work 
product substantively of those deliberations is not vetted by 
the campaign or by the candidate. It is really preparatory work 
that needs to be in the can, if you will, and ready for the 
President and Vice President-Elect. And the campaign doesn't 
want to own any of that before the election, and they shouldn't 
own any of that before the election because it could be 
attacked and you could be putting some controversial ideas on 
the table.
    The other side of that is you don't want a sideshow about 
who is involved in the transition to overwhelm what the 
important debate before the American public that is going on. 
So I think that the idea that there be a transition, that there 
be someone--my name and Mr. Ball's were out in public. I don't 
think there was any public announcement of it, if my 
recollection is right, but I think our names were out in 
public, that we were interfacing with the White House.
    I would just add to what Mr. Johnson said. We got 
tremendous cooperation at every level. I, of course, had been 
White House Chief of Staff, so I dealt directly with Josh 
Bolton, who was President Bush's Chief of Staff, and Chris Lu, 
who was the Executive Director of the transition, dealt with 
Ms. Lovelace or Blake Gottesman, the Deputy Chief of Staff. So 
we had very good coordination and communication. The press had 
a sense of what was going on, and yet we didn't have to be 
constantly taking incoming press questions or open up 
essentially to being second-guessed by the press.
    So I think that you have to strike a balance. The idea that 
there is an office, that someone is in charge, that the work is 
important and ongoing and in preparation, I think is fine. But 
after that, there has to be an ability to kind of shut down and 
work in a highly disciplined and discrete fashion.
    Senator Akaka. Thank you very much, Mr. Podesta.
    Mr. Stier, can you please follow-up with your views on 
publicly naming transition officials.
    Mr. Stier. Absolutely, and I think that I fully concur with 
what Mr. Podesta said. I mean, you don't want it to become a 
sideshow. But on the flip side, and I think, again, you 
identified the need here very well, which is that it is 
absolutely important that candidates be encouraged to make the 
investment early in that planning process. You will get, as in 
many issues, all things from different candidates. So there 
will be some candidates who understand that need and will make 
that investment irrespective of political risk. There are going 
to be some that, however, will not do so because they will 
either not understand its importance or be too concerned about 
the possibility of being attacked for that activity.
    I think the best thing that this Subcommittee could do 
would be to help set the stage so that there are more 
candidates who are encouraged to make that early planning a 
real investment and priority for themselves. And I think you do 
that in some measure by ensuring that both candidates have to 
do it. If the two candidates are holding hands, or if there is 
obviously a third-party candidate, the set of candidates, and 
they are doing the same thing, they inoculate each other from 
the attacks of being presumptuous. And I think that whatever 
you can do in this legislation to encourage that behavior is 
what we need to see here.
    Beyond that, plainly, this is activity that is fraught with 
all kinds of internal risk for campaigns, as well, because you 
don't want to distract from, even on the personnel side, your 
folks from thinking about trying to win the election as opposed 
to be thinking about what they will be doing after election 
day. But all that said, I think we, at this point, under-invest 
in that preparation.
    My understanding from Mr. Johnson's work is he was at it a 
year before the election, which in some ways makes the Obama 
effort look late, given how early they got going. You need to 
do that to get the enormous work done. And as I said earlier, 
we have to actually get more done than has previously happened, 
and I think that as the world gets more complicated and cycle 
times increase, we will have less and less of a capacity to 
absorb those breaks.
    Senator Akaka. Thank you, Mr. Stier.
    Ms. Lovelace, this was the first transition since the 
Presidential Transition Act of 2000 was implemented. One of the 
new requirements, as we discussed at our hearing with you in 
2008, was orientation from GSA for new political appointees. 
How effective has this orientation been, and at what point will 
GSA stop providing orientations to new appointees during this 
Administration?
    Ms. Lovelace. We actually started briefing both campaigns 
about the requirement for appointee orientation when we started 
working with them very early, even before the election, so that 
they understood what was expected or what was anticipated in 
the Presidential Transition Act of 2000. Right after the 
election, we continued that effort to help them understand what 
that orientation would look like. GSA doesn't shape that 
orientation. We provide assistance to the incoming 
Administration who, in essence, shapes what orientation will 
look like.
    We started working very early in the transition and they 
have, in fact, offered orientation sessions for appointees. 
They are continuing to do that to date. In fact, I just talked 
to the White House the other day and we are continuing it 
through this year and probably through next fiscal year. So 
those efforts are continuing and underway and they seem to be 
very pleased with the results.
    Senator Akaka. Thank you very much.
    Let me finally ask Mr. Stier, your report also says that 
too little attention is paid to preparing and training new 
political appointees. What more do you think should be 
provided, and can this be done in conjunction with GSA's 
training under the 2000 Transition Act?
    Mr. Stier. Thank you for the question. To me, it is pretty 
basic, and I am sure there is some football coach that has said 
this somewhere, I don't know who it is, but it is who you pick 
and how you prepare them. There is a lot of attention paid to 
who you pick, and even here, we have 140 or some odd positions 
out of those top 500 some odd that are still not filled 15 
months into the Administration.
    But preparing them is equally important, and that 
preparation process is being done, I think. There is an 
investment going on right now. But in my view, it hasn't been 
done at the level that it ultimately needs to be done, and that 
includes, I think, not only the cabinet, but also the 
subcabinet, and the amount of investment that has taken place 
so far to me is insufficient to garner the real team 
opportunities that any large organization needs to engender 
within its leadership group.
    So what can be done about that? If you don't have your team 
in place, it is really hard to prepare them. So the slowness of 
getting people in their jobs is clearly one of the challenges. 
And if you look at some of the management functions, the 
acquisition officers, the chief acquisition officer is clearly 
a big issue, chief financial officers. They are not there. So 
it is really hard to get them together to actually prepare them 
as a team.
    So solving the first problem of getting people in place 
earlier will enable, I think, better preparation. Ideally, I 
think you would be investing at least the resourcing that we 
see right now, and then some, and I would argue that one of the 
other places where we see very little in the way of effective 
training and orientation is between the political and the 
career teams. So you see very few instances in which cabinet 
departments or cross-agency efforts are designed to bring those 
political leaders together with the top career people so that 
they really are melding into one team. I don't think you 
legislate that, but I think that is something that would be 
better management behavior for this Administration and others.
    Senator Akaka. Thank you very much, Mr. Stier. Mr. Johnson.
    Mr. Johnson. Chairman Akaka, if I might add to that, I know 
when we, the Bush Administration, came in and we were told we 
had a million dollars or something to do some training, 
orientation, we said, well, so what is it supposed to consist 
of, and they said, you decide, but let us suggest some ideas. 
And the ideas were we should teach new subcabinet members what 
it means to be ethical, how to get along with the Congress, 
etc.
    I want to add a note of caution in this, that be careful 
about prescribing what it means to successfully orient a new 
team of people. It might be different for each Administration. 
The primary responsibility for working effectively with 
Congress should be with the legislative affairs person in the 
department. The primary responsibility for working effectively 
with the press should be with the communications people working 
in the department.
    I think one of the scariest thoughts is to take somebody 
who has not had to work effectively with the press before and 
in an orientation session try to tell them everything they need 
to know to work effectively with the press. That is creating 
all the wrong incentives and all the wrong suggestions that you 
can be taught how to work effectively with the press. That 
should not be the message that is being delivered to a new 
appointee.
    If you only had one minute to orient somebody about how to 
work effectively with the press or how to work effectively with 
Congress, the advice to give him is, go meet your legislative 
affairs person. Go meet your public affairs person and trust 
them and work effectively with them.
    So I caution us all about being too prescriptive and too 
simplistic about what it means to orient a new team of 
appointees to come up here and be effective.
    Senator Akaka. Thank you very much.
    Let me call on Senator Kaufman, and take as much time as 
you need for your questions.
    Senator Kaufman. Thank you, Mr. Chairman.
    Mr. Podesta talked a little about the security problems. 
Could each one of you talk about how the post-September 11, 
2001, affects the whole transition process? Ms. Lovelace, can 
you start?
    Ms. Lovelace. Well, where do I start? Clearly, in the 
appointee process, it certainly affects what that process looks 
like, moving forward with that. I deal more on the space issue 
and getting them the space that they need as an incoming 
Administration so that they can hit the ground running, and 
even there, ensuring that the space is secure and that they 
have all the requirements that they need, it has been a real 
challenge for us this past year. It required a whole new level 
of thinking for our team to make sure that they had what they 
need in terms of secure space and having people come in and 
out.
    When you are managing transition, there are a lot of people 
involved in it, and making sure that we are giving access to 
people who should be in the space, it created some issues for 
us, but I think we handled them pretty effectively. I think as 
we foresee it in future transitions, I think it is going to 
become even more complicated in terms of ensuring that not only 
is the space secure, but the technology is secure and all 
aspects of the transition is in a secure environment and I 
think we will be challenged even more in the future.
    Senator Kaufman. That is a good point, because I can 
remember and I know Mr. Podesta remembers how many briefings we 
had to have on when people were going to show up the first day, 
what they needed in terms of background to get started, I mean, 
just the plethora of security things was a real important part 
of getting things started. And then, obviously, having 
equipment that was secure.
    Ms. Lovelace. Absolutely. And our goal was to get people to 
their seat in 15 minutes from the time they walked in the door, 
and that created challenges, but we made it through those 
challenges.
    Senator Kaufman. And it is important from a security 
standpoint to get those people in their place as quickly as 
possible----
    Ms. Lovelace. Absolutely.
    Senator Kaufman [continuing]. Because you could be faced 
with some serious problem. Mr. Johnson.
    Mr. Johnson. Well, it not only impacted the things Ms. 
Lovelace talked about, but all those briefings and tabletop 
exercises were--September 11, 2001 made all those very 
important. That inaugural morning meeting between the Bush 
outgoing and Obama incoming about some potential threat, that 
would have been something that nobody could have forecasted 8 
years previously. So just the kinds of specific capabilities 
that have to be developed by 12 noon on January 20 are made 
multiple times greater than they were previously, prior to 
September 11, 2001.
    Senator Kaufman. Mr. Podesta, do you want to say some more 
on that?
    Mr. Podesta. Yes, a few things. First, from the perspective 
of what Ms. Lovelace was talking about, the building, the 
equipment, etc., people were used to working on the campaign in 
an unsecure environment. All of a sudden now you are in a 
context in which, from the perspective of cyber security, etc., 
and people listening and watching and wanting to know what the 
incoming Administration was going to do, you had to change 
habits very quickly. You had to be in a secure environment to 
do it. That all, I think, was handled reasonably well.
    We had the additional challenge of actually being in three 
places, in Delaware, in Chicago, and in Washington. The day 
after the election, there was not a Sensitive Compartmented 
Information Facility (SCIF) in the Chicago Federal Building 
that we could use for secure briefings. So we had to take the 
President-Elect to the Federal Bureau of Investigation (FBI) in 
order to obtain his intelligence briefings, which is a mile or 
so away from the Federal Building in downtown Chicago. I don't 
remember whether you were there, Senator.
    Senator Kaufman. Yes.
    Mr. Podesta. So there is that aspect of trying to operate 
in a secure environment. But I think the more important aspect 
is preparing the incoming team for the assumption of duties, 
and in that regard, again, I would highlight the ability to get 
people clearances early in the process. The 2004 legislation 
gave us the ability to have, I think, about 150 clearances----
    Senator Kaufman. Right.
    Mr. Podesta [continuing]. Done within a week of the 
election, most on the very day of the election. They had people 
who had gone through, been fingerprinted, had their background 
checks done, and so they were ready to go, and that meant that 
the team could start right away in the agencies or in the 
common pool that dealt with sort of as a kind of shadow 
National Security Council.
    And then I think the other thing that was done on the Obama 
side in conjunction with the Bush people was we tried to 
exercise and really begin to work at the top tier with people 
in their places. I think one of the things we gave a lot of 
thought to was that you had to be able to hand off from the 
transition to the incoming people who were serving in 
government and they needed to exercise together. So there were 
virtual National Security Council meetings that took place in 
Chicago under the President's leadership on a range of issues 
that included Jim Jones, Senator Clinton, Bob Gates, Admiral 
Mullin, and others. They came and they worked those issues as a 
team. So I think it permitted them to hit the ground running.
    And I would say, in contrast to my experience in the 
Clinton transition in 1993, the selection of the White House 
staff early was critical to create that smooth handing of the 
baton from the transition staff, if you will, to the people 
coming into government. And then the work with the Bush 
Administration seemed to me to be--everything can always be 
improved, but that was--concentrating on getting the people in 
position and really thinking through and working these problems 
as they would be on January 20 was quite critical to the 
success.
    Senator Kaufman. You know, there is a thought that I hadn't 
even thought about, and one of the advantages of having this 
pre-Election Day transition is there was no security with the 
Obama--I mean, there was security with the Obama transition 
before Election Day, but it was just amazing to me how little 
of the information came out. But if you think about it, there 
was a dedicated person out there that wanted to get hold of 
what was going on in the pre-election Obama-Biden transition, 
it wouldn't have been that hard to do.
    Mr. Podesta. I mean, look, this is a tremendous ongoing for 
those of us who live in this think tank world and in 
government, this is a challenge today----
    Senator Kaufman. Yes.
    Mr. Podesta [continuing]. Of people slamming our electronic 
communication systems and our computers, looking for any nugget 
of information that might be useful in terms of--a lot of that, 
I think, comes from our friends in China.
    Senator Kaufman. Right.
    Mr. Podesta. But it also comes from across the world.
    Senator Kaufman. And, of course, there is an argument we 
have not mentioned in terms of the legislation we are talking 
about, that really having people into secure areas with secure 
equipment before Election Day, having the major candidates----
    Mr. Podesta. And that was all, of course, prepared by GSA.
    Senator Kaufman. Right, but we didn't--the point is, we 
would now be doing that for people right after the nominating 
conventions----
    Mr. Podesta. Right.
    Senator Kaufman [continuing]. So that we would have, 
instead of meeting in some law firm's conference room where 
anybody could find out whatever we were doing if they really 
wanted to, we will be in a secure area with secure equipment.
    Mr. Stier. If I could just underscore----
    Senator Kaufman. Sure. Go ahead.
    Mr. Stier [continuing]. One point that Mr. Podesta said, 
the 2004 legislation allowed early clearance for personnel and 
I think that there was not equivalent use of that authority by 
the two campaigns, and I think that is quite important in terms 
of really understanding that. It is not every campaign that is 
going to understand the need to make these kind of early 
investments, so all you can do to promote that is really 
important.
    And I think there is continued opportunity to improve that 
security clearance process. So even to the extent of looking at 
who really needs the full field investigation and how many 
positions, and increasing the number of positions that are 
available to allow for early clearance. Mr. Johnson has done a 
ton of work on making the security clearance process faster. 
There are questions about reciprocity, where someone is cleared 
by one agency and then their clearance is not accepted by 
another, which makes zero sense at all and just gums up the 
system. And then there are questions about suitability reviews. 
So you might have the argument that someone has been cleared, 
but the agency is going to say, but I haven't looked to see 
whether that clearance actually makes sense.
    To Mr. Podesta's point, this actually carries over to 
today. But I think you could help in any legislative vehicle 
rationalize the security clearance process so you have one 
standard, and if someone is cleared, and if they have been 
cleared as a private citizen and they have met the standard, 
there is no reason why they have to go through it again simply 
because they are going to be a potential nominee for an office. 
They are providing the same material. That hasn't changed at 
all.
    Senator Kaufman. Mr. Johnson.
    Mr. Johnson. Senator, one thing I remember noticing, and as 
you all fine-tune your bill I encourage you to look at, 
candidates are asked to come forward with people that they want 
to be cleared to talk with the President-Elect about secure 
matters. That is different than the background check called for 
to be nominatable. It is not a full field background check. It 
is basically a name check.
    Senator Kaufman. Right.
    Mr. Johnson. Do you want to challenge candidates for the 
Presidency to submit names before the election to be given full 
field background checks so that, in fact, they are nominatable, 
not just cleared to be in a secure room with the President to 
talk about secure matters? Because they are different.
    Senator Kaufman. Right. Mr. Podesta.
    Mr. Podesta. I guess I would say, I would stop short of 
that because I think in the pre-election part of the campaign, 
you have been through full field investigations. Once there are 
a lot of FBI agents running around your high school, the names 
of those people make their way into the press. It is 
inevitable. And I think no campaign is really going to want to 
start that process of guessing who is going where because they 
are in the full field phase of the clearance process.
    Senator Kaufman. I think, by the way the frustration of 
when we were first starting to pick cabinet secretaries, we had 
this really secure system and everyone very quiet and very few 
people knew about it, but as soon as the FBI background check 
showed up at Attorney General Holder's high school, you didn't 
need a Ph.D. to figure out what was going on.
    And I think this goes back to the pre-transition, too. The 
mechanics of how you handle--and we are not even approaching 
that in this bill, but that is--the key to how many people have 
to be confirmed, how do you deal with it in the pre-transition, 
how do you deal with it in the transition, how do you have an 
orderly focus to everything, and the biggest thing is, because 
I can remember, Mr. Podesta, you and I having a discussion 
right at the beginning where you said we had a great new idea. 
We are going to get more people confirmed.
    And I said, unless we can do something about getting more 
FBI agents to do background checks or getting OPM to start 
doing background checks, it didn't matter what we did. All the 
planning and everything else didn't matter because you had 
this--the real kind of choke point was how many background 
investigations can you do and how fast can you get them done, 
and how fast could you get them done and still maintain 
confidentiality.
    Mr. Johnson. One of the interesting things that ties all 
this together, you were talking about Eric Holder. He had had a 
clearance in his prior life.
    Senator Kaufman. Right.
    Mr. Johnson. The point Mr. Stier made is, evidently, they 
were messing around in his high school. They went back and 
assumed that there was no clearance evidently and started all 
over again. Completely nuts. There was no acceptance of the 
work done previously. If they were only updating the clearance, 
they wouldn't have been going to the high school.
    For instance, one of the issues is who says that the FBI is 
the only investigative agency that is to be doing this work? 
One of the things that we have proposed that the Senate was not 
interested in and the Administration was not interested in was 
bringing in OPM's Investigative Services operation that does 
the background work for every security clearance given by the 
Federal Government.
    Senator Kaufman. Mr. Podesta, I think that was what you 
attempted to get done in the last transition, right?
    Mr. Podesta. Well, we definitely supported the Bush 
Administration's efforts to move that background clearance 
process to OPM.
    Mr. Johnson. Some of it, or all of it, but----
    Senator Kaufman. No, but I think----
    Mr. Podesta. Again, there is sensitivity between certain 
nominees, but I think the resistance really in large measure 
was for PASs by the Senate.
    Senator Kaufman. Yes. Right.
    Mr. Podesta. I think that if you went down to the other end 
of Pennsylvania Avenue, there would be a lot of support for 
saying, if these people can clear people for the highest 
levels, security clearances for everyone else in the 
government, they can do it for the PASs, as well. And I think 
that makes a lot of sense. It would be probably cheaper and it 
would be more efficient and I think they could apply more 
directed resources to it. But I think the resistance to that is 
probably in the Senate because they think, and maybe 
rightfully, although I am not convinced of that, that the gold 
standard is an FBI full background investigation.
    Senator Kaufman. Mr. Stier.
    Mr. Stier. Yes. I just want to underscore, again, what Mr. 
Johnson just said. There is some real low-hanging fruit here. 
There are a fair number of these folks that are going to be 
considered who have already been in government, who are around 
government, who have clearances, and it makes zero sense at all 
that you start from scratch. And you would actually save 
yourself both the resources and the publicity if you simply 
accepted at least some major part of that clearance, but 
frankly, it should be the whole thing, because they can see the 
same material. It doesn't matter.
    So there are some very, I think, straightforward things 
like that that would get you part of the way there and have 
very little in the way of downside costs.
    Senator Kaufman. And the thing I would say, Mr. Podesta, is 
the Senate is definitely--the siloing of the different 
committees and the different approaches. But I have talked 
about this with the Administration's people and Administrations 
and they say, well, if you are not confirmable, you don't have 
as much clout because you are not in a confirmable position. 
Why should legislative affairs people be a confirmable 
position? They say, we have got to be confirmable because that 
is the only way you have the--I mean, I hear that time and time 
and it doesn't make any sense to me.
    Mr. Johnson. That is not true. We have some very important 
positions. The head of all IT policy for the Federal Government 
is not a Senate confirmed position. So some of the legislative 
affairs people are in Senate confirmed positions. Some of them 
are not.
    Senator Kaufman. Yes.
    Mr. Johnson. And so----
    Senator Kaufman. I am just saying--one of the articles in 
the paper about the 13 czars or 15 czars in the Federal 
Government who don't have to be Senate confirmed. I am just 
saying I didn't get that push-back from just one or two. I get 
that push-back a lot, that they are not confirmable. And I 
think that this is ripe, Mr. Chairman, for legislation. This is 
just ripe for the Senate to get together with the 
Administration.
    The other thing is, obviously, it all works well until it 
is the person you want for your administrative position in the 
government. You want to have the President have a say on who 
that person is going to be and that it is confirmed. So I think 
there is plenty--I am a Senate person. I admit that. But I 
think there is plenty of blame to go around on this.
    And I think in order to solve it, Mr. Stier, which I think 
your organization is uniquely set to do, we have got to sort 
out--yes, Mr. Johnson.
    Mr. Johnson. I was going to say, when we say there are too 
many political appointees, in my mind, that means there are too 
many PASs, too many----
    Senator Kaufman. Exactly. There is nothing----
    Mr. Johnson [continuing]. Senate confirmed. You could be a 
Presidential appointee. You are a PA.
    Senator Kaufman. Exactly. Right. But the point is, I am 
telling you, and I am sure you have run into it, too, people 
say, I want my post to be confirmable, and it makes no sense--
--
    Mr. Johnson. Well, that is----
    Senator Kaufman [continuing]. As far as from an objective 
analysis if somebody is--it makes no sense, but it is one of 
the hurdles that we have to figure out how to get over.
    Mr. Johnson. One cycle will do away with that.
    Senator Kaufman. I think that is exactly right. But, I 
think, look, there is a series of things, and I would like you 
to--before I do that, I would like Ms. Lovelace to talk a 
little bit about--because one of the things that we do in the 
bill we are talking about is we basically replicate what you 
did on election day to having to duplicate or maybe even more 
on the day after the nominating convention. Can you talk a 
little bit about it? Do you see that as a problem, the fact 
that you would have to go back and start on this process in 
August and do it for two complete organizations, or, in fact, 
if a third-party candidate qualified, for a third-party or 
more?
    Ms. Lovelace. As you might expect, we are currently 
reviewing the legislation very carefully to determine how we 
can go about doing it, what changes we might suggest to the 
legislation to make sure that we are on solid footing in 
getting that done. As quietly as it was kept, we actually 
started working with both campaigns prior to the conventions--
--
    Senator Kaufman. Right.
    Ms. Lovelace [continuing]. And so I think it is important, 
and we would be ready, I believe, to help at an earlier stance 
because we don't wait until August to start doing the work. We 
actually start doing our work far in advance of that. So I do 
believe we would be prepared to help support that. But we just 
want to look at the legislation----
    Senator Kaufman. Sure.
    Ms. Lovelace [continuing]. To make sure that we can meet 
its requirements.
    Senator Kaufman. I am very interested in your feelings on 
that, because just a mechanical problem of having to do the 
security, having to have the space, having to have the 
equipment, just the mechanical problems of doing this, again, 
for a candidate that has not been elected to public office, and 
to staff and transition staff that you need who are not----
    Ms. Lovelace. One of our big issues will be the funding of 
it prior to the election----
    Senator Kaufman. Right.
    Ms. Lovelace [continuing]. And we will have to work through 
some of those issues. But again, I think the foundation of the 
bill, which leads to starting earlier, we absolutely support.
    Senator Kaufman. Right. Mr. Podesta.
    Mr. Podesta. Yes. I may be a victim of my own experience, 
but as I reviewed the legislation, Senator, it struck me that 
what you were envisioning, and I think what would be 
appropriate, are two smaller----
    Senator Kaufman. Yes.
    Mr. Podesta. You wouldn't need to build out what Ms. 
Lovelace and her team built out for the post-election 
transition----
    Senator Kaufman. Good point.
    Mr. Podesta [continuing]. But having smaller offices that 
could be available that had secure equipment, etc., it seems to 
me is a different level of challenge than having the complete 
operation up and running.
    Senator Kaufman. And I think one of the things, and I would 
be interested in your comments on this, is the whole political 
problem of who is on the transition team and who is not. First 
off, you put some people on the transition, you clear them for 
security, all the rest of that, and people start, like I think 
you said in your testimony, they start checking them out. What 
is their position on issue X or issue Y, and that would create 
a nightmare.
    So you are really talking about a transition of the 
technocrats, mechanical folks, the folks that were mostly on 
your personal staff, that were working with you, hopefully writ 
large, right, but not--you are not talking about people who 
would end up being assistant secretaries or under secretaries 
or secretaries.
    Mr. Podesta. Well, as Mr. Johnson and I both know well, we 
live in the era of the politics of personal destruction.
    Senator Kaufman. Exactly.
    Mr. Podesta. So I think anybody, whether you are an advisor 
or whether you are on the airplane with the candidate or 
whether you are on the transition team, you open yourself up to 
scrutiny by the outside and by the blogs and by the opposition 
team and they will try to create a storyline about that.
    But I think that, again, just to come back to the 
importance of doing the job, it is so critical in this era, the 
complexity of the problems, the security challenges, the 
economic challenges, to be able to get that work done, that I 
think that is manageable politically. But to think that it 
won't occur just because you pass a bill would be naive and----
    Senator Kaufman. No, and so that is another reason to keep 
it, as you said, smaller, not as big, not having as many people 
involved, and the rest of it.
    I would also like your comments--I mean, there is a 
mechanical side to this and there is a technical side to it. 
Like the bill says, it is putting it all together. But one of 
the biggest problems, and I know that Mr. Podesta has intimate 
knowledge, is you have a campaign going on. You have a 
candidate and you have a campaign staff who are spending 28 
hours a day working on that. I find an incredible amount of 
political figures concerned about, in their own mind, doing 
anything that has to make decisions before that.
    Can you talk a little bit about that, Mr. Podesta, about 
the difficulty of doing any of the things we are talking about, 
especially personnel, at a time--and policy--when the decision 
makers who are going to be coming in the next day are totally 
consumed because of the importance of being consumed, but also 
because of their basic mindset, I don't want to jinx myself by 
starting to plan ahead.
    Mr. Podesta. Well, I think with regard to my experience 
with Senator Obama, I think I saw as a part of the success of 
that pre-election transition process not burdening him with 
much of anything----
    Senator Kaufman. Right.
    Mr. Podesta [continuing]. But keeping him informed enough 
that he knew that the planning was on track so that come the 
day after the election, things could start to move. We made no 
personnel decisions in advance of the election.
    Senator Kaufman. Right.
    Mr. Podesta. But he was interested in beginning to think 
through and talk through different potential candidates for the 
different potential positions. As you know, we had a secure 
conversation with the--I guess he wasn't the outgoing, with the 
current Secretary of Defense and that had to be----
    Senator Kaufman. Right.
    Mr. Podesta [continuing]. Arranged after the election, but 
in a very quiet way. So he was engaged in that, but at a very 
minimal level. I talked to him once a week, I think for about--
--
    Senator Kaufman. Right.
    Mr. Podesta [continuing]. Half an hour or 45 minutes and 
gave him a short memo every week just to keep him abreast.
    But I think everyone who was on the transition knew the 
most important thing was you had to pay--you had to get elected 
first. None of that mattered unless you won the election and 
the people on the campaign, we had an interface with Ms. 
Jarrett, Mr. Rouse, and that worked, I think, relatively 
smoothly.
    Senator Kaufman. But essentially, the personnel decisions 
started on that Thursday after Election Day.
    Mr. Podesta. The next day.
    Senator Kaufman. Yes, exactly.
    Mr. Podesta. You sat in the room.
    Senator Kaufman. Yes, I know.
    Mr. Johnson. The person that makes the decision is one.
    Senator Kaufman. Right.
    Mr. Johnson. And he is not in that transition office.
    Senator Kaufman. Right. The most difficult of all the 
things that is the hardest to keep secure is personnel. So the 
number of people that you have involved in personnel in the 
transition is small. Can you talk a little bit about that, Mr. 
Podesta, how you approached that to keep--and how difficult--I 
mean, you have to keep this so secure because everybody in town 
wants to know who is the candidate for Secretary of State.
    Mr. Podesta. Right. Well, again, in the pre-election days, 
we were not passing a lot of information back and forth. We 
worked in, in essence, secure groups or cells. That effort was 
led by Mike Froman, who was in New York, who is now the Deputy 
National Security Advisor. But he had several different 
deputies who were working in clusters around the individual 
agencies.
    What their job at that point was to do only public record 
research, and I think the McCain team did something similar to 
this, begin to develop lists of names, only do public research, 
research through public records, and really just be ready for 
the day after the election to be able to then begin the process 
of serving that up to the President and Vice President-Elect 
for decision.
    Senator Kaufman. So even getting 100 people and picking out 
who the 120 security things would have been an incredible----
    Mr. Podesta. I would say we probably, Mr. Johnson's 120 and 
my 120 might vary by five or 10.
    Senator Kaufman. Right.
    Mr. Podesta. I found that to be true even when I was 
dealing with the White House. There were posts that we thought 
were important that they placed less emphasis on.
    Senator Kaufman. Yes.
    Mr. Johnson. It was different.
    Mr. Podesta. But I would say that we probably had a list 
developed of names for virtually all those posts before the 
election, but only with public record research.
    Senator Kaufman. But just going through the process of 
doing 120 is not easy, especially at the same time while you 
are picking your cabinet secretaries, to the extent your 
cabinet secretaries have a say in who some of these key people 
working, Secretary of Defense, Secretary of State, they are 
going to want to have a say, right? So even with all the things 
right and even with a total commitment, it is incredibly 
difficult to do.
    And I think that the more we go through this again and 
again, it just brings back some memories. We really need a 
major look, Mr. Chairman, just at this process. This is not 
just about less confirmed positions. We have to get less 
confirmed positions. I totally believe that. I am just saying, 
the push-back that we get both in the Senate and the rest of 
it, we have to have less confirmed positions.
    The idea that you raised today about having different 
levels of background checks--background checks are a big 
problem. Having different levels of background checks would be 
an important part of that process. Having different people be 
able to do those background checks, taking advantage of 
security, because the same thing happened with me. Every 
security form now, I had to go back to this original form--
where were you born? Where did you go to elementary school? It 
is all in OPM somewhere, and it is all in the Senate somewhere. 
But to go back to that, but then to have to deal with this.
    And I think one of the big problems is just the President-
Elect mindset. This all has to be set up, but you are not going 
to have approval until Election Day, and the new President 
coming in, the Vice President and their staff are going to be 
making decisions starting with the cabinet secretaries and 
working their way through that.
    So we really need kind of a hard look at just--and I know, 
Mr. Stier, you have done your report that covers a lot of this, 
but this is a complex nut. It isn't just if we sat down--
because we always--the discussion around here is, we just need 
the gumption to say that we are not going to confirm these 
things. We just need the gumption to come up with a form, one 
form for everybody. We just need the gumption to do it. It is 
more than just gumption. These are extraordinarily complex 
problems that we need some staff work. Mr. Johnson.
    Mr. Johnson. The idea of there being fewer President 
appointed, Senate confirmed, is a good idea. But back to a 
point that Mr. Stier and I commented on at the beginning, which 
was the goal is that 100-plus----
    Senator Kaufman. Right.
    Mr. Johnson [continuing]. And the 400, that is not going to 
impact the speed of those people getting in there.
    Senator Kaufman. Right.
    Mr. Johnson. That impacts whether the Senate has to, in the 
fall, occupy itself with getting the assistant secretary for 
something you never heard of confirmed. That is--if you can 
take that off of the ``to do'' list, that is great, but that 
doesn't make it easier for the Senate to approve the deputy 
secretary of something or other by April 1.
    Senator Kaufman. Great. Thank you. Thank you for your 
patience, Mr. Chairman, and----
    Senator Akaka. Thank you, Senator Kaufman.
    We will have a second round, but before we do that, I would 
like to call on Senator Voinovich for his questions.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. First of all, I want to apologize for 
not being here, but I am on the Appropriations Committee, and 
we had National Aeronautics and Space Administration (NASA) 
before my Subcommittee. NASA is a big job creator in Ohio and I 
am real interested in where they are going with that agency, so 
I had to be there for it.
    I would like to welcome John Podesta here today--my 
friend--and Max Stier, Gail Lovelace--nice to see you again--
and Clay Johnson. By golly, I thought that we said goodbye, but 
here you are. [Laughter.]
    I just want to say publicly that Mr. Johnson did a 
wonderful job when he was over at OMB to help put the ``M'' 
back into OMB.
    The Homeland Security Advisory Council's Report of the 
Administration Transition Task Force issued in January 2008 
recommended that Congress promptly pass appropriation bills to 
``avoid negative impacts on the operation and training that can 
result from continuing resolutions,'' during the transition 
period. I was particularly impressed with that recommendation 
because I said publicly that the greatest gift that we could 
have given the President would be to have passed our 
appropriations bills on time, which we haven't done for I don't 
know how long, I mean, rarely do we ever get it done on time. 
Hopefully, we might do it this year. So anyway, I would like to 
know just what your opinion is on how important passing 
appropriations bills on time that is to an incoming 
Administration.
    Mr. Podesta. Well, Senator, you bring back memories, 
because I remember sitting in the--after Bush v. Gore in the 
Oval Office with President Clinton and the five leaders, 
because I think the Majority Leader from the House as well as 
the Speaker were there in 2000, and we hashed out the last 
appropriations bill. I think it was on December 20, or 
thereabouts. And I think that it probably actually helped a 
little bit to be able to take that piece of business off the 
table so that you didn't have to come back, and I know that 
after the Recovery bill was passed, the Obama team had to come 
back and clean up the appropriations bills from the previous 
year. So I think that it would be--I think it is smart and 
useful and I would encourage at least acting in the spirit of 
that 2008 recommendation.
    Senator Voinovich. Anyone else want to comment on that?
    Mr. Johnson. I agree. It is just whether there is a new 
Administration coming in or not, when the government has to 
begin a new fiscal year and it is uncertain what money they 
have or don't or what is the status of new programs, old 
programs, and so forth. There is uncertainty, which makes it 
more difficult for an agency or program to clearly understand 
what it is that they are trying to do. So the more certainty 
the new Administration can have, the more certainty that the 
Federal agencies can have, the better the Federal Government is 
going to work.
    Senator Voinovich. Mr. Johnson, the last time we met, the 
deadlines included in your July 18, 2008 had not passed. Can 
you discuss how agencies generally fared in meeting those 
deadlines? I was really impressed that you wanted to get 
started early and make a very smooth transition. How many of 
those agencies made your deadlines, and were there any that 
particularly stood out or did a good job that could be a good 
role model for other agencies in this period?
    Mr. Johnson. My recollection is that all agencies met those 
goals. One of the reasons they did is because they helped set 
them. We met with agencies starting in late April and said, all 
right, what does it mean for an agency to prepare to accept and 
get up to full ramming speed a new Administration, and we 
brainstormed what all that would constitute and what had to be 
done by when to make that possible, and so what I was doing was 
summarizing the ideas that the different agency operating heads 
had, and so then I put it together and then sent the note back 
out basically to formalize what they had, in effect, put 
together to be the guidance that they thought made sense for 
the Federal Government.
    And then we didn't have compliance people going around to 
see if they did it. One of the main things that a Federal 
agency wants to do is to please their new bosses coming in, so 
they want to be really well prepared to receive their new 
bosses, and what we did in this process was help them define 
what that meant. So the outgoing Administration didn't need to 
spend much energy to motivate them to do a good job. The fact 
that there was a new Administration coming in was plenty 
motivation enough.
    Senator Voinovich. Ms. Lovelace.
    Ms. Lovelace. It is good to see you, Senator Voinovich. To 
follow onto what Mr. Johnson is saying, we really didn't have 
to push anybody to really step up and do what they needed to 
do. We had many meetings with the different agency 
coordinators, and clearly, they were engaged. They wanted to 
know what they could do. There were a lot of new people in some 
of those positions. And I believe that just the support of the 
team helping each other understand what they should be doing 
and how they could move forward, I think everybody really 
stepped up to the plate. I agree with Mr. Johnson. They really 
wanted to get ready for the new Administration coming in and I 
believe everybody stepped up to meet that goal.
    Mr. Johnson. One of the things that Ms. Lovelace's comment 
reminds me of, is several people that had been through multiple 
transitions previously commented they had all been charged to 
get ready, but it had never been clarified for them what ``get 
ready'' meant.
    Ms. Lovelace. Right.
    Mr. Johnson. Everybody wanted to be ready and they wanted 
to do as much as everybody else was doing, but they didn't know 
what everybody else was doing. It was just unclear what ``good 
enough'' meant. And so that process of getting together and 
deciding what they all felt like ``good enough'' meant, and 
then clarifying that and then putting that out as a directive 
filled the bill.
    Senator Voinovich. In other words, there wasn't any kind of 
guidance that agencies could look to saying here are the A, B, 
C, D, E, F, G things that you need to do in order to make this 
thing as effective as----
    Mr. Johnson. No. I mean, it is pretty straightforward, when 
an agency head comes in, what they need to do. There is some 
guidance about in the first 60 days, what a new cabinet 
secretary needs to do. There are some things that are on fire, 
they need to be put out, and there are some big opportunities, 
some new things that need to get launched or are in the process 
of being launched. And so you need to prepare them to deal with 
those kinds of issues. There are reference materials that you 
can go to to give you some ideas about how to do that, or what 
needs to be done. But now it is just a question of deciding how 
to do that, prepare to take the new cabinet secretary and to 
help them do that in the first 15, 30, 45, 60 days of being in 
charge of the new department.
    Senator Voinovich. Mr. Podesta, did you ever sit down with 
your folks and say, gee, I wish the Bush Administration had 
done ``X'' to get prepared for us to come into office? Do you 
understand what I am saying?
    Mr. Podesta. Yes, and I had different experiences, having 
come into the first day of the Clinton Administration and then 
leaving. I found that it was ad hoc, if you will, when we 
entered in 1993, but with tremendous cooperation, as I noted in 
my testimony, from my Republican counterparts who--I came in as 
the Staff Secretary and they were both completely generous with 
their ability to brief me in the few days that I had to prepare 
coming into the Administration. But there was no formal plan. 
It was just they were open and I called them up and we sat 
down, with Jim Cicconi and Phil Brady, and they were terrific 
in helping guide me in terms of the needs that I had.
    At the end of the Clinton Administration, we did issue, I 
think, the first Executive Order on Presidential transitions to 
try to create the Council that was done under the Bush 
Administration, but I think the Bush Administration did that 
earlier. I think Mr. Johnson's game plan was more detailed. I 
think we sort of set the groundwork for that, but I think they 
have taken it from that experience and really built on it and I 
commend them for that.
    And I think that it should become the norm with respect to 
transitions, and one of the things that Mr. Stier pointed out 
was that when you are at the end of an 8-year Administration, 
it is easy to think about these things. If you are running for 
reelection, it may be a little bit harder to anticipate that 
you may actually be handing the baton off to someone else. So 
trying to create institutional mechanisms to ensure that this 
transition works no matter when it occurs is, I think, 
particularly challenging.
    Senator Voinovich. I am laughing because when the Bush 
Administration took over, I was pushing them to really look 
back at the transition and say what mistakes were made and so 
forth and other bad experiences that they could have avoided 
because I felt that once they were in the saddle, that they 
weren't going to be worrying about some of those things.
    Mr. Stier, do you know of any situation where after you had 
the transition, that the folks that were in the previous 
Administration sat down with the next Administration and 
brainstormed lessons learned? It is kind of a quality 
management type of experience, where they kind of shared ideas 
and kind of wrote them down and said, this is the way to get 
the job done?
    Mr. Stier. I am sure that there are examples of that but 
there is nothing that comes to mind as a best case model. I 
think one interesting example is what happened with DHS. In 
part again because of legislative requirement, they did focus, 
I think, a little more intensely on that transition process and 
there was a Coast Guard admiral who was responsible for 
managing that process. When he came in, actually, I think he 
did a very good job and he is someone I think is worth talking 
to in terms of how to do that process right. But because it was 
the first transition that they were going through, I think that 
enabled more attention to be paid to that process than I think 
existed elsewise.
    I would also underscore what both Ms. Lovelace and Mr. 
Johnson had to say about the power of bringing the folks from 
across government together, because from my vantage point, it 
was quite uneven in terms of the experience that people had, 
even the memories that people had about going through the 
transition process. I mean, it is obviously a very episodic 
process, and if it hasn't happened in 8 years, there really 
oftentimes are not that many people that have been through it 
before and it is really an oral tradition. There is not much 
that has really been written down. Martha Kumar has come in. 
She is doing a great job of writing some of this stuff down.
    But I think the advantage of bringing people together early 
is really quite powerful, particularly among the career ranks. 
And again, that was one of the things they did at DHS, was 
really to identify early on who would be the career leaders, 
because you never know, again, how long that process is going 
to take before the actual transition occurs. I think DHS is an 
interesting example for that reason.
    Senator Voinovich. I have taken more than my time, Mr. 
Chairman.
    Senator Akaka. Thank you very much, Senator Voinovich.
    I will begin a second round here. Mr. Johnson, your 
testimony focuses heavily on the nomination and appointment 
process. One suggestion you make is expediting the most time-
sensitive positions. Since the attacks of September 11, 2001, 
as well as the establishment of the Department of Homeland 
Security, there has been much more focus on getting national 
security staff into place quickly. Senator Voinovich and I have 
also advocated for quickly filling management positions across 
the government.
    What type positions do you consider the most time sensitive 
that should be the primary focus in the first few months?
    Mr. Johnson. Well, I think that list is going to vary from 
Administration to Administration, just because, for instance, 
when the Obama Administration came in, there was all this 
financial and economic meltdown. That was not the case 8 years 
previously, and so Treasury and Commerce positions were 
critically important when the Obama Administration came in. 
They were less critically important, and there were fewer of 
them that were super time-sensitive when the Bush 43 
Administration came in.
    There are probably 50 positions that are the leadership or 
the deputy leadership of every agency. I think it is very 
important to just be able to run the departments. And then 
beyond that, there are a handful of national security positions 
and State Department, Defense Department, Homeland Security 
Department, and a few other departments, that I think most 
everybody would agree are time sensitive, very time sensitive.
    But it is really not relevant what I think they are. It is 
what the new Administration's priorities at the time are. And a 
management position at some department over here might be time 
sensitive, but the comparable management position at this other 
department over here may not be a time sensitive position. For 
instance, a manager position at Homeland Security 4 years ago 
might have been very important, time sensitive, whereas at an 
established agency, that management person, comparable 
management position, may not be as time sensitive because the 
department isn't trying to create itself.
    So there is any number. It doesn't make any difference what 
the positions are, but I think it is important that the Senate 
and the incoming Administration have a general understanding 
about what those time-sensitive positions are and some general 
idea about the kind of commitments they are going to make. One 
can't bind the other, but what kind of general commitments they 
are going to make, the kinds of things they are going to try to 
do, the kind of capacities they are going to try to build to, 
in effect, address those positions faster than they are going 
to be able to address the next most time sensitive and the next 
most time sensitive and the ones that aren't particularly time 
sensitive.
    Senator Akaka. Mr. Podesta, would you want to comment on 
that?
    Mr. Podesta. Well, I fundamentally agree with what Mr. 
Johnson just said. As I noted at the outset, I think that our 
list was a little bit different than the Bush team's list. They 
had developed a list that I think Josh Bolton, the Chief of 
Staff, shared with me in August of the positions that they 
thought were the most critical to be filled. They were highly 
concentrated in the national security arena. Obviously, as Mr. 
Johnson noted, we had to fill that out with a more substantial 
economic team as a result of the financial crisis, including 
the head of the U.S. Commodity Futures Trading Commission 
(CFTC) and Securities and Exchange Commission (SEC), which I 
think we named during the transition. That probably hadn't been 
done before. But it was necessary in the context of that time. 
I think the first 50 are usually pretty easy. It is the next 
100 you might quibble about, and then the 100 after that.
    I want to come back to one thing that was noted, again, 
earlier by Mr. Johnson, which is that the White House office 
is, at least in my view, relatively small in terms of 
personnel. I think it is still around 450, 500 people. The 
President has to divide a lot of stuff up, from the National 
Economic Council to the Domestic Policy Council to Presidential 
personnel, legislative affairs, communications, the press 
secretary, amongst what is a relatively small office.
    And I think if you have no surge capacity in Presidential 
personnel, the ability to vet the White House Council, which is 
involved in the vetting, in the first months, it ends up 
showing. So you build an operation which is the steady state, 
what you need to do in year three and year four and year five, 
because that is all you can allocate to those functions.
    And to the extent that the Subcommittee might consider 
encouraging or appropriating the monies to have a surge 
capacity on this ability to process nominations at the 
beginning of an Administration, I think that would be very well 
received and very worthwhile.
    Senator Akaka. Mr. Stier, would you, from your 
perspective----
    Mr. Stier. Well, I just wanted to add something that Mr. 
Podesta shared in an interview with him, which I thought was 
also a good idea, which is that if you enabled the personnel 
process to continue in the transition offices past the 
inauguration point, that might be quite helpful, too, because 
there is just a dislocation of learning a new environment, 
systems, everything else like that, that you really don't want 
at a time when it is really essential, when you are really 
going as hard as you can on the personnel side. So if you think 
about your surge capacity, some of it can be maintained, 
frankly, in the transition space. That might be a mechanism to 
do it. But that is an idea Mr. Podesta had shared, and 
likewise, when asked about where his pain points were, the 
vetting resourcing was clearly one of them.
    But it does strike me that on this issue of critical 
positions that there is sort of a hierarchy of issues here. 
Those are the key positions, and clearly, as Mr. Podesta and 
Mr. Johnson say, they are going to change a little bit over 
time, but there are going to be some core ones that you know 
are always going to be the same.
    And then there is the question about how you do that 
faster, but then there is a series of other decisions to be 
made. If you can reduce the number of political appointees so 
your assistant secretary for public affairs, for legislative 
affairs, the general counsel, that those are political 
positions, Presidential appointees but not Senate confirmed, 
then presumably you can get those in and the critical people 
are going to have the support that they need to do their job 
right from day one, as well.
    And then the other option that I would put on the table 
which I did not mention earlier is one in which you just simply 
actually had fewer political appointees around the management 
positions. So query, does your Chief Financial Officer (CFO) 
and your Chief Acquisition Officer and your Chief Human Capital 
Officer really need to be political appointees? Dave Walker's 
notion of a Chief Operating Officer (COO) having a term 
appointment. So I think that there is real harm done to 
governance in our government by the very fast turnover that you 
have amongst the leadership, and it is particularly acute in 
those management functions where you have to be investing over 
a long time horizon and these folks aren't around to do it.
    So again, this is a complicated set of issues, as you 
suggest, Senator Kaufman. I don't think you are going to find 
one answer, but I think if you start doing triage like that, 
you might make for a much better system.
    Senator Akaka. Mr. Podesta, in Martha Joynt Kumar's 
transition article, she quoted you saying that there were 
problems transferring personnel records from the transition 
system to the White House system and that it may have been 
easier if you were able to have used the transition system 
after Inauguration Day. Can you tell us more about this issue 
and whether there are any legal or policy barriers to keeping 
certain transition resources in place after January 20?
    Mr. Podesta. Well, as I noted to Ms. Kumar and to Mr. 
Stier, this was a problem we actually didn't anticipate, and it 
was, in essence, a technical problem of moving a huge data set 
from computers that existed in the transition to computers that 
existed in the White House office. Maybe we should have 
anticipated it, but we didn't, and those needed to be--the 
protocols that the White House secure environment required and 
that the Secret Service required in importing that data from, 
in essence, GSA computers into the White House computers took 
several weeks to basically move those files at a very critical 
time, which we didn't experience, I would say, in the rest of 
the policy apparatus. So it was because of the volume of the 
data that was coming in and the movement of that data into the 
system.
    At least we identified it by having encountered that 
problem, so maybe it can be anticipated and worked through. My 
suggestion, again, to the people doing that report was I didn't 
see any legal barrier to essentially leaving the personnel 
office up and running in the transition. It would have 
obviously had to been financed separately, but one could have 
continued to operate out of the transition offices, which were 
open for an additional month, I think. We began to shut down, 
but there was space available for an additional month. We could 
have kept the system rolling in the transition office until all 
that data was moved to the White House, and that was an off-
the-top-of-my-head solution to the problem. There may be other 
technical solutions that could be worked out as long as the 
problem is identified.
    Senator Akaka. Ms. Lovelace, let me ask you, and you can 
comment on this, as well, how long does GSA support for the 
transition continue after the new Administration begins?
    Ms. Lovelace. I guess it depends on how you define support. 
In terms of the actual spaces, as Mr. Podesta talked about, 
that space is available for an additional 30 days, but I was 
intrigued by that part of the report from the Partnership for 
Public Service that actually proposed that perhaps we could 
extend that--but that, of course, for us will require 
legislation--so that the incoming Administration could stay in 
the transition space longer to deal just with these kinds of 
issues that Mr. Podesta is talking about.
    In terms of other kinds of support, we are still providing 
support to the incoming Administration on appointee 
orientation. That will continue for a couple of years out. And 
we also still continue to provide support to what is now the 
Office of the Former President, and we actually do that for the 
lifetime of that particular President. And so our support in 
transition never really stops. [Laughter.]
    Senator Akaka. Thank you. Senator Voinovich, have you any 
questions?
    Senator Voinovich. There are so many aspects of this. I can 
remember that we made a real try in terms of the people that 
needed to receive the approval of the Senate for their 
nominations. It is a great story. Senator Reid and Senator 
McConnell were co-chairs of this effort, and they were working 
very conscientiously to go through the list of people that 
really we didn't have to confirm. And then they both ran for 
leadership posts in their respective parties, and the 
initiative disappeared because so many of the committee 
chairmen were so jealous of wanting to have these nominees come 
to their attention.
    I would just be interested in your thoughts as to whether 
we ought to reconvene that group and see if there isn't some 
way at this stage of the game to look at this realistically, 
because I just think there are too many positions that we are 
having to confirm. Then that gets into the other issue, just 
getting nominees to apply today in light of the whole financial 
disclosure process. I don't know if you mentioned that or not, 
but the reams of paperwork is amazing. One individual who got 
an ambassadorship, he must have had a lot of money, because he 
claims he spent over $200,000 with his accountant going through 
all of the papers that he had to file for financial disclosure.
    And then the other one, of course, that Senator Akaka and I 
are trying to work on is this whole issue of security 
clearance. It is still on the High-Risk List and hopefully we 
are going to get it off the list before I get out of here, 
right, Senator Akaka? [Laughter.]
    Do you think that mandating in law the formal transition 
beginning earlier than it currently does, that we should do 
that? In terms of the money, the way that we go about making 
money available for the transition, is that a sensible process, 
or should that be changed?
    Mr. Stier. I think it is a good start and it is an 
important piece of solving what is, as you suggested, a 
collection of different problems. It is not going to be a 
panacea for everything, but again, I think it is a clear need 
and only becoming increasingly so, again, as the challenge of 
taking over a very complicated government increases.
    So I think all that is to the good, and I think the one 
recommendation we made, frankly, was that you actually require 
the councils be set up rather simply than authorizing, which is 
as it is currently stated.
    To your question around the number of Senate-confirmed 
presidential appointees, plainly, that is a challenging 
question and as you suggested, there is a lot of history around 
this. I wonder, and again, I don't have any perfect answer, but 
I wonder whether there isn't a mechanism of creating some kind 
of ad hoc committee of chairs and rankings members that would 
look to the question about whether, collectively as a group, 
that they could give up on certain classes of positions, like 
the assistant secretaries for public affairs, the legislative 
affairs, and general counsels. Individually, they may want to 
hold on to their folks, but if they see that they are all, 
again, willing to hold hands and do this together.
    And in that context, might that group likewise be the group 
that would agree to some kind of goal and time table for the 
confirmation of the critical set of positions that need to come 
in by day one and by 100 days and by the summer recess, so that 
you actually had a set of folks that were focused on this, that 
were the necessary parties to doing this.
    As presumptuous as it was, Kristine Simmons, who runs our 
Government Affairs operation at the Partnership--and who came 
to us from an esteemed employer--we had the silly idea of 
visiting with the staff in the key national and economic 
security committees, both the Majority and Minority, just to 
ask them, would you agree to a time table, that if the incoming 
Administration provided you the names by a date that you set--
that you would agree to have those critical positions confirmed 
by or close to the time of inauguration. And what we found was 
that, in principle, everyone was supportive of the notion. They 
understood why it was important. But we were not obviously in 
the position to do anything but to propose an idea, and I think 
without the collective action, it is not going to happen.
    Mr. Podesta. Senator, I think with respect to the specific 
legislation that you have introduced with Senators Kaufman, 
Akaka, and Lieberman, I said I thought it was a good idea in my 
testimony. I think that it creates what I described as a new 
normal, that the expectation is that someone who is running for 
office would take the necessary steps to plan for that critical 
transition at a time of where the problems are so complex and 
where particularly the security needs of the country are so at 
stake. So I think that--I encourage you to move that 
legislation forward.
    On the nomination front, I think there is a host of issues 
and problems. Mr. Johnson is co-chairing a task force that the 
Aspen Institute is doing with a number of former government 
officials, both from the Congress and the Executive Branch, 
that hopefully will produce some good recommendations. I think 
you can strip the number of PASs, both in terms of the category 
of jobs and perhaps some of the part-time jobs that are 
currently required to be Senate confirmed.
    But I think, ultimately, it is going to require the Senate 
itself deciding whether the slowing down the staffing of the 
government, where the President's nominees, and I say this 
respective of party, when the President makes a selection, if 
there is a majority in support of that nomination, shouldn't 
they be confirmed and put into office? We are not talking about 
lifetime appointments of judges or Supreme Court. We are 
talking about people who, on average, only serve for 2 years to 
begin with. And so delaying their entry into service, I think, 
is a real problem for the country. But that really is a problem 
that you are going to have to, I think, confront with your 
colleagues.
    Senator Voinovich. Well, I have spent my last year looking 
at the operation of the Senate and even the government is 
dysfunctional. We are still looking at the process like we did 
50 years ago and things have changed. I am really concerned 
that if we don't really start getting at some of the things we 
are talking about here today, the process is not going to work. 
Plus the fact that a lot of folks that we want to get in 
government aren't going to want to come around. They will just 
say, I don't need it.
    There is this idea, David Walker's idea of an agency Chief 
Operating Officer that kind of stays with it. We tried to do it 
in the Department of Homeland Security, to get somebody that 
would be in charge of transformation. We have also been trying 
to transform the Department of Defense (DOD). There are 14 
things that are on the High-Risk List. Eight of them just deal 
with the Defense Department. It just doesn't get done because 
people come in, they do a real good job, and then another group 
comes in with different policies. And transformation just 
doesn't happen.
    So maybe when I get out of here, I will get with some 
lobbying groups. I can't do that until after a year, but maybe 
I'll work with some do-gooder group, and see if we can reach 
these goals. I guess the Aspen Institute is working on 
something. You don't have to tell me about it, Mr. Johnson. You 
can send me something on it. I would be interested.
    Mr. Johnson. I think when you leave the Senate, you would 
be a great candidate to be the first person to be in charge of 
DOD transformation. [Laughter.]
    I would be betting on you to get it done.
    Senator Voinovich. Yes. Thank you. [Laughter.]
    Senator Akaka. Thank you very much, Senator Voinovich.
    I want to thank our witnesses for appearing today and for 
your service to our country.
    I think that we have heard here today that everyone's focus 
and emphasis on planning and good management paid off. We have 
also heard about gaps, which we may help bridge. More can be 
done to help the incoming and outgoing teams, and more must be 
done to speed the confirmation process. I look forward to 
continuing to work with my colleagues on this issue.
    Senator Voinovich, I would like to think that our oversight 
and our working so closely together has really contributed to 
getting the message out about management and planning for the 
transition as well as other issues. I realize each time I chair 
a hearing with you, Senator Voinovich, that we don't have much 
time left serving together. So I hope we can make the most of 
it.
    Senator Voinovich. Thank you very much, Senator Akaka.
    Senator Akaka. The hearing record will be open for 2 weeks 
for additional statements or questions other Members may have 
pertaining to the hearing.
    This hearing is adjourned.
    [Whereupon, at 12:03 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
